National Aeronautics and
Space Administration
Office of Inspector General
Washington, DC 20546-0001



                                           June 24, 2008


TO:            Chief Financial Officer

FROM:          Assistant Inspector General for Investigations

SUBJECT:       Agency Response to Results of Mission Management Aircraft
               Investigation


Thank you for your June 16, 2008, response to our May 29, 2008, referral regarding the
use of Mission Management Aircraft by former NASA Administrator, Mr. Sean O’Keefe.

Based upon our assessment of the overall facts and circumstances of this matter, to
include the information cited in your response, we consider this matter closed.

If you have any questions, please do not hesitate to contact me at (202) 358-2580.



      signed
Kevin H. Winters

cc:
Chief of Staff/Mr. Morrell
General Counsel/Mr. Wholley
